PROOF OF SERVICE
SUPREME COURT RULE 29 (5)

. David W. Silke, Shannon Wodnik
Gordon & Rees LLP
701 Fifth Avenue
Suite 2100
Seattle, WA 98104
206.695.5100 EXT. 5112
Attorneys for:
Washington State Bar Association; Sarah Andeen;
Kevin Bank; Kathryn Berger; Keith Mason Black;
Stephanie Bloomfield; Michele Nina Carney; S. Nia
Renei Cottrell; William Earl Davis; Stephania
Camp Denton; Linda Eide; Doug Ende; Marcia
Lynn Damerow Fischer; G. Geoffrey Gibbs; William
Mcgillin; Michael Jon Myers; Joseph Nappi Jr;
Lin O'dell; Allison Sato; Ronald Schaps; Julie
Shankland; Marc Silverman; Todd R. Startzel; John
Doe
Mark Plivilech
15010 W Four Mound Rd.
Nine Mile Falls, WA 99026
PO BOX 343
Nine Mile Falls, WA 99026
509.443.8099

Amanda Gabrielle Butler, Shannon Mary Ragonesi
Keating Bucklin & McCormack, Inc., P.S.
801 Second Avenue, Suite 1210
Seattle, WA 98104
206.623.8861
Attorneys For:
The City of Gold Bar; Joe Beavers; Linda Loen; Crystal HillPennington
Thomas P. Miller, Attorney
Christie Law Group, PLLC
Suite 206
2100 Westlake Avenue North
Seattle, WA 98109
206.957.9669
Attorneys for:
The City of Duvall; Lori Batiot
Michael R. Kenyon, Ann Marie Soto
Kenyon Disend, PLLC
11 Front Street South
Issaquah, WA 98027
425.392.7090
Attorneys for:
Kenyon Disend, PLLC; Michael Kenyon; Margaret
King; Ann Marie Soto; Sandra Sullivan

Joseph Burke Genster
Snohomish County Prosecuting Attorney
3000 Rockefeller Avenue
M/S 504
Everett, WA 98201
425.388.6330
Attorney for:
Snohomish County; G. Geoffrey Gibbs; Sara
Divittorio; Seth Fine; Brian Lewis; John Lovick; John
Pennington; Sean Reay; Mark Roe

Geoffrey Martin Grindeland
Seamark Law Group PLLC
400 Winslow Way E
Suite 230
Bainbridge Island, WA 98110
206.502.2511
Attorney for:
Carey Coblantz; King County

Brian C. Dale
'Deno, Millikan, Dale, Decker & Petersen
3411 Colby Avenue
Everett, WA 98201-4709
425.259.2222
Attorney For:
Sky Valley Media Group, LLC; Ronald Fejfar

I declare under penalty of perjury under the laws of
the United States of America that the f egoing is
true and correct. Executed on this/
ay of
October 14, 2019.
I dedare under penalty of perjury under the laws of the United States of America that the
foregoing, is true and correct.
on thi
of October 2019.
ne Block, •ro e
115 West Main St #204
Monroe, WA 98272
(206) 326-9933
Washington State NetsiyASZliattk

)d(

